No. 19-1189
IN THE

$upreute Taurt of the thtitetr ,*tates
BP P.L.C., ET AL.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondent.
On Writ of Certiorari to the United States Court of
Appeals for the Fourth Circuit

BRIEF OF BOULDER COUNTY,
SAN MIGUEL COUNTY, AND THE CITY OF
BOULDER, COLORADO, AS AMICI CURIAE
IN SUPPORT OF RESPONDENT
KEVIN S. HANNON
THE HANNON LAW
FIRM, LLC
1641 Downing Street
Denver, CO 80218
DAVID BOOKBINDER
NISKANEN CENTER
820 First Street NE,
Ste. 675
Washington, DC 20002

MARCO B. SIMONS
Counsel of Record
RICHARD L. HERZ
MICHELLE C. HARRISON
SEAN POWERS
NAOMI GLASSMAN-MAJARA
LINDSAY BAILEY
EARTHRIGHTS
INTERNATIONAL
1612 K St. NW, Ste. 800
Washington, DC 20006
(202) 466-5188
marco@earthrights.org

Counsel for amici curiae
December 23, 2020

QUESTION PRESENTED
The text of 28 U.S.C. § 1447(d) allows appellate
review of district court orders remanding cases to
state courts only where removal was premised either
on the federal-officer removal statute, 28 U.S.C. §
1442, or the civil-rights removal statute, 28 U.S.C. §
1443. In Board of County Commissioners of Boulder
County v. Suncor Energy (U.S.A.) Inc., 965 F.3d 792
(10th Cir. 2020), the Tenth Circuit ruled that this
language "does not expressly contemplate the
situation in which remand is granted regarding . . .
mixed grounds for removal," i.e., an appeal from both
a Section 1442 or 1443 ground and another, nonenumerated ground. Id. at 805. Since the statute does
not expressly address such appeals, the question
presented is:
1. Does a party's mere assertion of 28 U.S.C. § 1442
or 1443 in a Notice of Removal entitle that party to
appellate review of all asserted grounds for removal?

11

TABLE OF CONTENTS
QUESTION PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii
iii

IDENTITY AND INTEREST OF AMICI CURIAE

1

INTRODUCTION AND SUMMARY OF
ARGUMENT

3

ARGUMENT

5

I. The Tenth Circuit found Section 1447(d) to be
ambiguous — and any ambiguity is best resolved
in favor of limited appellate review

5

The Tenth Circuit found the language of the
"except" clause to be ambiguous

7

If there is any ambiguity in the statute,
canons of construction confirm limited
appellate review

9

II. This Court should refuse Petitioners' invitation
to create a new basis for removal and vastly
expand the preemptive scope of federal common
13
law
Petitioners previously argued that federal
common law cannot apply to a case such
as this

15

Petitioners cannot remove a case to federal
court based on unpled federal common law
that affords Respondent no cause of action

17

This dispute is not governed by the federal
common law of interstate pollution

25

CONCLUSION

28

111

TABLE OF AUTHORITIES
Federal Cases
American Electric Power v. Connecticut,
564 U.S. 410 (2011)
Atherton, v. FDIC,
519 U.S. 213 (1997)
Avco Corp. v. Machinists,
390 U.S. 557 (1968)
Bell v. Cheswick Generating Station,
734 F.3d 188 (3d Cir. 2013)
Ben. National Bank v. Anderson,
539 U.S. 1 (2003)
Board of Commissioners of Boulder County v
Suncor Energy (U.S.A.), Inc.,
965 F.3d 792 (10th Cir. 2020)

passim
21
19, 23- 24
23
19, 22, 24

passim

Board of County Commissioners of Boulder
County v. Suncor Energy (U.S.A.), Inc.,
405 F. Supp. 3d 947 (D. Colo. 2019)

20

Calder v. Jones,
465 U.S. 783 (1984)

25

Cannon v. University of Chicago,
441 U.S. 667 (1979)

12

Carpenter v. Wichita Falls Indep. Sch. Dist.,
44 F.3d 362 (5th Cir. 1995)

18

Caterpillar, Inc. v. Williams,
482 U.S. 386 (1987)

17, 18, 19

iv
Chickasaw Nation v. United States,
534 U.S. 84 (20011985)

6

City & Cty. of San Francisco v. Purdue Pharma L.P.,
No. 3:18-cv-07591, 2020 U.S. Dist. LEXIS
181274 (N.D. Cal. Sept. 30, 2020)
28
City of N.Y. v. Bob Moates' Sports Shop,
253 F.R.D. 237 (E.D.N.Y. 2008)

26

City of Oakland v. BP PLC,
969 F.3d 895 (9th Cir. 2020)

17

Empire Healthchoice Assurance, Inc. v. McVeigh,
396 F.3d 136 (2d Cir. 2005)

20

Estate of Cowart v. Nicklos Drilling Co.,
505 U.S. 469 (1992)

7, 10

Franchise Tax Bd. v. Constr. Laborers Vacation
Tr., 463 U.S. 1 (1983)

19

Gregory v. Ashcroft,
501 U.S. 452 (1991)

21

Hinderlider v. La Plata River & Cherry Creek
Ditch Co., 304 U.S. 92 (1938)

26

In re "Agent Orange" Prod. Liab. Litig.,
635 F.2d 987 (2d Cir. 1980)

25-26, 28

In re Methyl Tertiary Butyl Ether ("MTBE")
Prods. Liab. Litig.,725 F.3d 65 (2d Cir. 2013)

26

In re Nat'l Prescription Opiate Litig.,
440 F. Supp. 3d 773 (N.D. Ohio 2020)

26

Int'l Paper Co. v. Ouellette,
479 U.S. 481 (1987)
Jackson v. Johns-Manville Sales Corp.,
750 F.2d 1314 (5th Cir. 1985)

19-20
26

V

Key v. Doyle,
434 U.S. 59, 65 (1977)
Lu Junhong v. Boeing Co.,
792 F.3d 805 (7th Cir. 2015)
Massachusetts v. Exxon Mobil Corp.,
462 F. Supp. 3d 31 (D. Mass. 2020)
McCarthy v. Bronson,
500 U.S. 136 (1991)
Merrell Dow Pharm., Inc. v. Thompson,
478 U.S. 804 (1986)
Metro. Life Ins. Co. v. Taylor,
481 U.S. 58 (1987)
Middlesex Cty. Sewerage Auth. v. Nat'l Sea
Clammers Ass'n, 453 U.S. 1 (1981)
Milwaukee v. Illinois,
451 U.S. 304 (1981)
Nat'l Audubon Soc. v. Dep't of Water,
869 F.2d 1196 (9th Cir. 1988)

11
8
17
7, 9
18, 21
19, 23
26- 27
20
26

Native Village of Kivalina v. ExxonMobil Corp.,
696 F.3d 849 (9th Cir. 2012)

15

O'Melveny & Myers v. FDIC,
512 U.S. 79 (1994)

27

Pinney v. Nokia, Inc.,
402 F.3d 430 (4th Cir. 2005)

18

Public Citizen v. United States Dep't of Justice,
491 U.S. 440 (1989)
Rhode Island v. Massachusetts,
37 U.S. 657 (1838)

6- 7, 9
26

vi
Rhode Island v. Shell Oil Products Co.,
979 F.3d 50 (1st Cir. 2020)
Robinson v. Shell Oil Co.,
519 U.S. 337 (1997)

7, 10
6

Russell Corp. v. Am. Home Assur. Co.,
264 F.3d 1040 (11th Cir. 2001)

18

Smith v. United States,
507 U.S. 197 (1993)

10

Syngenta Crop Prot., Inc. v. Henson,
537 U.S. 28, 32 (2002)

11

Things Remembered v. Petrarca,
516 U.S. 124 (1995)

10

United States v. Standard Oil Co.,
332 U.S. 301 (1947)

23- 24

Va. Uranium, Inc. v. Warren,
139 S. Ct. 1894 (2019)

27

Vaden v. Discover Bank,
556 U.S. 49 (2009)

24

West Virginia University Hospitals, Inc. v. Casey,
499 U.S. 83 (1991)
Yamaha Motor Corp., U.S.A. v. Calhoun,
516 U.S. 199 (1996)

6
12

Yates v. United States,
574 U.S. 528 (2015)

6

Young v. Masci,
289 U.S. 253 (1933)

25

vii
State Cases
In re Tobacco II Cases,
207 P.3d 20 (Cal. 2009)

28

People v. ConAgra Grocery Prods. Co.,
227 Cal. Rptr. 3d 499 (Cal. Ct. App. 2017)

26

Federal statutes and rules
28 U.S.C. § 1442

passim

28 U.S.C. § 1447

passim

Removal Clarification Act of 2011,
Pub. L. No. 112-51, § 2(d),
Nov. 9, 2011, 125 Stat. 546

12

Briefs & Other Court Filings
Answering Brief for Defendants-Appellees,
Native Village of Kivalina v. ExxonMobil
Corp., No. 09-17490
(9th Cir. filed June 30, 2010)

15-16

Appellants' Opening Brief, Mayor & City
Council of Baltimore v. BP P.L. C.,
No. 19-1644 (4th Cir. filed July 29, 2019)

12

Petition for Writ of Certiorari, Board of
Commissioners of Boulder County v. Suncor
Energy (U.S.A.), Inc., No. 19-1330
(filed Dec. 8, 2020)
Plaintiffs-Appellees' Response Brief, Mayor &
City Council of Baltimore v. BP P.L. C.,
No. 19-1644 (4th Cir. filed Aug. 27, 2019)

2

22

IDENTITY AND INTEREST OF AMICI CURIAE
Amici curiae are three Colorado jurisdictions —
Boulder County, San Miguel County, and the City of
Boulder — which have been severely harmed by an
altered climate. These communities have suffered, and
will suffer, significant economic losses responding to
climate impacts including heat waves, wildfires,
droughts, floods, loss of snowpack, and destruction of
forests by insects. Impacts such as these will only get
worse as the Earth continues to warm — a scientifically
certain outcome based on greenhouse gas emissions
already in the atmosphere.'
In 2018, these communities filed suit against oil
companies Suncor Energy, Inc., Exxon Mobil, Inc., and
several Suncor subsidiaries, in Colorado state court.
Their suit, Board of County Commissioners of Boulder
County v. Suncor Energy (U.S.A.), Inc., demands that
the defendants bear their relative share of
responsibility for their role in causing the harms these
communities have incurred and will incur responding to
the altered climate. While amici do not contend that the
oil companies bear sole responsibility for climate
change, they believe that they are entitled to have a
Colorado jury determine the degree of responsibility
that results from producing and selling enormous
amounts of fossil fuels while knowingly
misrepresenting their dangers. State law is well suited
to adjudicate whether amici's claims have merit. Their

1 No counsel for a party authored this brief in whole or in
part, and no person other than amici curiae or their counsel made
a monetary contribution to its preparation or submission. The
parties have filed blanket consents to the filing of any amicus
brief.

2
suit, like others filed by cities, counties, and States, does
not seek to regulate emissions of greenhouse gases in
any way. And because their case involves injuries to
Colorado property and public resources, suffered in
Colorado, based on activities perpetrated by private
corporations, and does not invoke or implicate any
federal statutes, they are entitled to proceed in
Colorado state court.
Amici are prejudiced by protracted fights over
federal vs. state court jurisdiction. Already, their suit
was delayed by a year and a half due to the defendants'
removal to federal court — rejected as meritless by the
federal district court, which remanded to state court.
Allowing greater appealability of remand orders would
increase - the likelihood that removals are used as a
delay tactic in a broad array of cases, potentially leading
to years of litigation over federal jurisdiction before the
merits of a case are considered — contrary to Congress'
purpose.
Amici also have a direct stake in the outcome of this
proceeding. The remand order in their case was
appealed to the U.S. Court of Appeals for the Tenth
Circuit; that court affirmed the remand, finding that
appeal was limited to the federal-officer statute, 28
U.S.C. § 1442, and soundly rejecting the application of
this statute. Bd. of County Comm'rs of Boulder County
v. Suncor Energy (U.S.A.) Inc., 965 F.3d 792 (10th Cir.
2020) ("Boulder County'). The defendants in this case
have recently filed a petition for a writ of certiorari, see
Pet. for Writ of Certiorari, No. 19-1330 (filed Dec. 8,
2020), arguing that the Boulder County case presents
the same question as this proceeding, and should be
disposed of accordingly.

3
INTRODUCTION AND SUMMARY OF
ARGUMENT
Title 28 U.S.C. § 1447(d) only allows appeals from
lamn order remanding a case to the State court from
which it was removed" if the case was removed
"pursuant to section 1442 or 1443 of this title." Amici
agree with Respondent that the plain meaning of this
language, interpreted in context, unambiguously
indicates that only the Section 1442 or 1443 grounds
should be reviewable on appeal. Resp. Br. 10-23.
Because the language is clear and does not produce an
absurd result, that should be the end of the inquiry.
If, however, the Court does not agree that this
language, read in context, clearly indicates limited
review, then Section 1447(d) must be considered
ambiguous. The Tenth Circuit held in Boulder County
that the statute "does not expressly contemplate the
situation in which remand is granted regarding . . .
mixed grounds for removal." 965 F.3d at 805. Boulder
County noted that Section 1447(d) does not explain
either whether review would be of the entire remand
order or of the order relating to Section 1442 or 1443
nor does it explain whether a removal done pursuant
to Section 1442 or 1443 and other grounds is
considered "pursuant to section 1442 or 1443." Id.
Thus, if the context does not conclusively indicate
limited review, three possibilities are present: 1) such
a mixed-ground removal is not considered a removal
"pursuant to section 1442 or 1443," and thus not
appealable; 2) such a mixed-ground removal is, in its
entirety, considered a removal "pursuant to section
1442 or 1443"; or 3) such a mixed-ground removal is
considered a removal "pursuant to section 1442 or
1443" only as to the portion of it that concerns Section

4
1442 or 1443, and thus appealable only as to that
portion.
Any such ambiguity can, however, easily be
resolved by reference to the purpose of the statute,
supported by the fact that Congress, in adding a
reference to Section 1442 in the Removal Clarification
Act, ratified the then-universal approach of the federal
courts of appeals. That approach was, and is, to allow
appeal only of the portion of the remand order
concerning Section 1442 or 1443. Indeed, allowing
review of the entire remand order would create a
strong incentive to invoke a baseless Section 1442 or
1443 argument in order to open the door to a timeconsuming appeal.
Petitioners' brief starkly illustrates the problem
with their argument. While they claim that their
invocation of federal-officer removal jurisdiction opens
the door to their appeal, they do not even bother to
argue that removal is proper under the federal-officer
statute — nor did they even present this question to
this Court. Thus they effectively concede that
jurisdiction is not warranted under the federal-officer
statute. Instead, they argue that federal jurisdiction is
actually proper because the Respondent's claims arise
under federal common law. Nearly half their amici
echo this argument. None of them makes more than a
cursory argument that federal-officer jurisdiction is
actually proper here.
Instead, it is clear that Petitioners' real goal is for
the Court to consider their radical arguments
regarding removal based on federal common law. To
entertain such arguments would require this Court to
determine whether broad swathes of law can be

5
federalized on the basis of vague "federal interests"
advanced by Petitioners. It would also require this
Court to consider, for the first time, whether federal
common law provides a basis for "complete
preemption," rather than ordinary preemption that
does not allow removal. And it would require this
Court to make either an unprecedented ruling that
complete preemption is possible even where a federal
cause of action is not present, or decide whether a
federal cause of action is actually available here —
which in turn requires resolving several novel
questions left open by American Electric Power v.
Connecticut ("AEP"), 564 U.S. 410 (2011).
None of Petitioners' arguments on these points is
sound. Regardless of their merit, however, even if the
Court were to agree with Petitioners that appellate
jurisdiction lies over all removal arguments, it should
not decide whether federal common law creates
jurisdiction here. Petitioners themselves previously
argued against the application of federal common law
in this context, demonstrating that — at a minimum —
that question raises novel, complex issues of law that
should not be decided without the benefit of
consideration by the lower courts and full briefing by
the parties in response to a clearly-articulated
question presented.
ARGUMENT
I.

The Tenth Circuit found Section 1447(d) to
be ambiguous - and any ambiguity is best
resolved in favor of limited appellate
review.

Petitioners' argument is premised on the flawed
notion that the "plain text" of Section 1447(d) provides

6
that, whenever Section 1442 or 1443 is asserted in a
Notice of Removal alongside other grounds for removal,
any resulting remand order is — in its entirety — "an
order remanding a case" which was "removed pursuant
to section 1442 or 1443" and thus entirely reviewable on
appeal. Petr. Br. 16-20. Amici agree with Respondent
that this language, interpreted in context,
unambiguously restricts appellate review to Section
1442 or 1443. Resp. Br. 10-23. But if it does not, Section
1447(d) must be considered ambiguous, as the Tenth
Circuit found in Boulder County. Assuming this
ambiguity, the meaning of this provision can only be
resolved by reference to the statute's structure,
Congress' purpose, and the context in which it was
enacted.
This Court has repeatedly determined that "[t]he
plainness or ambiguity of statutory language is
determined by reference to the language itself, the
specific context in which that language is used, and the
broader context of the statute as a whole." Robinson v.
Shell Oil Co., 519 U.S. 337, 341 (1997) (finding that
"employees" was ambiguous in the context of the
statute); see also Yates v. United States, 574 U.S. 528,
537-38 (2015) (listing cases). A word or phrase is
unambiguous when it has "a clearly accepted meaning
in both legislative and judicial practice," W. Va. Univ.
Hosps., Inc. v. Casey, 499 U.S. 83, 98 (1991), while a
word or phrase is ambiguous when it is "capable of
being understood in two or more possible senses or
ways." Chickasaw Nation v. United States, 534 U.S. 84,
90 (2001) (quoting Webster's Ninth New Collegiate
Dictionary 77 (1985)).
When a word or phrase is ambiguous, the Court then
looks to the statute's "purposes and origins." Pub.

7
Citizen, v. United States Dep't of Justice, 491 U.S. 440,
454-55 (1989); see also, e.g., McCarthy v. Bronson„ 500
U.S. 136, 142-43 (1991) (interpreting ambiguity by
looking at the policy behind the statute); Estate of
Cowart v. Nicklos Drilling Co., 505 U.S. 469, 482 (1992)
(interpreting ambiguity through the "purposes and
structure" of the statute). As Respondent outlines, and
as the Tenth Circuit found, the structure, history, and
policy behind Section 1447(d) show that only the portion
of the order that addresses the question of removal
pursuant to Section 1442 or Section 1443 is reviewable.

A. The Tenth Circuit found the language of
the "except" clause to be ambiguous.
The Tenth Circuit in Boulder County found that
Section 1447(d)'s "except" clause was ambiguous,
because it "does not expressly contemplate the situation
,in which remand is granted regarding . . . mixed
grounds for removal." 965 F.3d at 805; see also Rhode
Island v. Shell Oil Prods. Co., 979 F.3d 50, 57 (1st Cir.
2020) (endorsing this interpretation). In particular, the
Tenth Circuit held that the word "order" viewed in the
context of the "except" clause is ambiguous as to
whether the review extends to grounds other than
federal officer or civil rights. Boulder County, 965 F.3d
at 804-05; see also Rhode Island, 979 F.3d at 57.
Instead, Section 1447(d), on its face, assumes that a
case was either "removed pursuant to section 1442 or
1443" or not. In either of those circumstances, the result
is clear; but in a case such as the one at bar, where
removal was done on multiple grounds, the Tenth
Circuit held that Section 1447(d) is ambiguous. Boulder
County, 965 F.3d at 805.
Petitioners' leading case, the Seventh Circuit's

8
opinion in Lu Junhong v. Boeing Co., 792 F.3d 805 (7th
Cir. 2015), effectively concedes this point. As Boulder
County notes, Lu Junhong holds that Section 1447(d)
"authorizes review of the remand order, because the
case was removed (in part) pursuant to §1442." 792 F.3d
at 811. But the need for this parenthetical addition
undermines the argument for an unambiguous plaintext interpretation:
[T]o convey its point that the plain
language of § 1447(d) creates plenary
review of a remand order upon invocation
of a federal officer removal basis, the
Seventh Circuit was forced to modify that
language with a clarifying parenthetical
entirely absent from the statutory text.
Boulder County, 965 F.3d at 805. Similarly, Petitioners
quote Lu Junhong stating that "the whole order" is
removable, again showing the need to add qualifying
language that the statute's plain text does not contain.
Petr. Br. 17 (quoting Lu Junhong, 792 F.3d at 811).
Petitioners reject any textual ambiguity in Section
1447(d), simply asserting that "pursuant to" cannot be
read to mean "pursuant only to." Petr. Br. 20. This is so,
they claim, because the alternative would "prove too
much: whenever a defendant raises alternative bases
for removal, even the federal-officer or civil-rights
ground would become unreviewable." Id. Their own
argument, of course, has a similar flaw: whenever a
defendant raises a federal-officer or civil-rights ground,
even alternative bases for removal become reviewable.
Indeed, it is Petitioners' own argument that proves
too much. Their objection to the "pursuant only to"
interpretation can only be understood as an appeal to

9
Congress' purpose in allowing appellate review of
Section 1442 and 1443 grounds. But by urging
consideration of Congress' purpose, Petitioners
effectively concede that the statute does not
unambiguously support their position. Looking to the
policy behind a statute is typically only necessary to
resolve ambiguity. E.g., Pub. Citizen, 491 U.S. at 45455; McCarthy, 500 U.S. at 142-43.
Divorced from its context, the language of Section
1447(d)'s "except" clause admits at least three
possibilities. First, that clause could be read to mean
"except that an order remanding a case to the State
court from which it was removed [only] pursuant to
section 1442 or 1443 of this title shall be reviewable by
appeal." Second, it could be read to mean "except that
an order remanding a case to the State court from which
it was removed [in part] pursuant to section 1442 or
1443 of this title shall be reviewable by appeal [in its
entirety]." Third, it could be read to mean "except that
an order remanding a case to the State court from which
it was removed [in part] pursuant to section 1442 or
1443 of this title shall be reviewable by appeal [with
respect to the section 1442 or 1443 issue]." The
statutory context clearly points to the latter
interpretation; if any ambiguity remains, however, then
the Court should proceed to consider other tools of
statutory interpretation.
B. If there is any ambiguity in the statute,
canons of construction confirm limited
appellate review.
When the plain text of a statute is ambiguous,
canons of construction suggest reference to the
structure and purpose of the statute, as well as any

10
underlying presumptions and congressional actions.
Estate of Cowart, 505 U.S. at 477-82 (interpreting
statutory text based on the structure, purpose, and
congressional actions regarding the statute); see also
Smith v. United States, 507 U.S. 197, 203-04 (1993)
(applying presumptions as part of the canons of
statutory construction).
As noted above, Petitioners themselves appeal to
Congress' purpose by arguing that the first
interpretation — providing no review in mixed-ground
cases — is absurd. Petr. Br. 20. But Petitioners then
reject any further consideration of Congress' purpose or
the other aids that guide this Court in determining the
meaning of a statute. They assert that the second
interpretation — plenary review in mixed-ground cases
— must follow if the first is rejected, claiming that they
are engaged in a plain-text interpretation when they
have already departed from that approach in order to
resolve statutory ambiguity. Petitioners are correct to
look beyond the statutory text to reject the first
interpretation, but mistaken to ignore additional aids
to decide between the remaining alternatives.
After finding ambiguity in the text of Section
1447(d), the Tenth Circuit found that "the 'except'
clause must be narrowly construed" to fulfill Congress's
purpose of maintaining only limited, enumerated
removal grounds that are reviewable. Boulder County,
965 F.3d at 805-07; Rhode Island, 979 F.3d at 57-59.
When viewing "order" in the context of the statute as a
whole, the structure and purpose is to limit review of
remand orders to only the explicitly excepted grounds.
Resp. Br. 16; Things Remembered v. Petrarca, 516 U.S.
124, 127 (1995).

11
The Tenth Circuit additionally found that the
presumption against jurisdiction further strengthened
the narrow construction of the removal statute. Boulder
County, 965 F.3d at 813-14. While this Court does not
appear to have previously considered what presumption
applies to statutes regarding appellate review of
removal, two related presumptions provide guidance.
This Court has recognized a presumption in favor of
narrowly construing removal statutes, Syngenta Crop
Prot., Inc. v. Henson, 537 U.S. 28, 32 (2002), and a
narrow construction of statutes providing appeals as of
right to this Court, Key v. Doyle, 434 U.S. 59, 65 (1977).
Similar principles should extend to appellate review of
removal decisions, as the Tenth Circuit correctly
determined.
The Tenth Circuit again found that the expanded
scope of jurisdiction Petitioners argue for would lead to
"protracted litigation" and "prolong the interference"
that the statue aimed to avoid. Boulder County, 965
F.3d at 816-18 (internal quotation marks omitted). The
statutory purpose to avoid delays from over-litigating
removal decisions further supports a narrow reading of
Section 1447(d). Resp. Br. 35-37.
Finally, the narrow construction of Section 1447(d)
best comports with the congressional ratification of
existing jurisprudence that had narrowly understood
the exception clause. Resp. Br. 31-35. As the Tenth
Circuit stated, the "minor change evidence [d]
Congress's intent to adopt the existing appellate
consensus" that the appellate jurisdiction was only over
the specific section "basis for removal, not the entire
remand order." Boulder County, 965 F.3d at 815.
Indeed, Petitioners previously agreed that, when it

12
added Section 1442 to the "except" clause via the
Removal Clarification Act of 2011, Pub. L. No. 112-51, §
2(d), 125 Stat. 545, Congress was aware of — and
intending to incorporate — relevant jurisprudence. They
claimed that Congress, in adding the words "1442 or" to
the statute but not changing the word "order," intended
to incorporate this Court's decision in Yamaha Motor
Corp., U.S.A. v. Calhoun, 516 U.S. 199 (1996),
interpreting "order" in 28 U.S.C. § 1292(b). See
Appellants' Opening Br. 12, Mayor & City Council of
Balt. v. BP P.L.C., No. 19-1644 (4th Cir. filed July 29,
2019). Petitioners even raised this argument in their
petition for certiorari, noting that the "the Removal
Clarification Act of 2011 . . . added the provision
permitting removals under the federal-officer removal
statute to section 1447(d) without altering the
subsection's reference to remand 'orders."' Pet. 19. In
this argument they relied on Cannon v. University of
Chicago, 441 U.S. 667 (1979), which holds that it is
"appropriate to assume" that Congress was "aware of
prior interpretations" of the same language. Id. at 69798.
Apparently realizing that Congress was more likely
aware of, and intending to ratify, the then-unanimous
judicial interpretation of the very provision they were
amending, rather than intending to incorporate the
interpretation of the same word from a very different
statute, Petitioners now drop this argument entirely.
They now argue that "the prior-construction canon has
little force here" because, they claim, the meaning of
Section 1447(d) was not "settled" in 2011. Petr. Br. 34.
This rejection of the prior-construction canon is the
opposite of what they argued previously and, as
Respondent has amply demonstrated, it is obviously

13
incorrect. Resp. Br. 32-33.
If the statute is ambiguous, the structure, purpose,
policy concerns, relevant presumptions, and
congressional ratification all support a narrow
construction of Section 1447(d) to only permit review of
the removal bases under Section 1442 or Section 1443.
Only that reading prevents parties from using meritless
Section 1442 or 1443 arguments as a basis for reviewing
other grounds, review that Congress intended to
foreclose.
II.

This Court should refuse Petitioners'
invitation to create a new basis for
removal and vastly expand the preemptive
scope of federal common law.

Petitioners' invitation for this Court to consider
their "arising under" federal common law argument
illustrates exactly the problem with their favored
interpretation of Section 1447(d). While they invoked
Section 1442 to open the door to appellate review, they
do not bother to argue that the Fourth Circuit's
rejection of that basis for removal — the only basis the
court below actually considered — was erroneous.
Instead, they invite this Court to consider an entirely
different ground for federal jurisdiction which is not
encompassed by the question presented and was not
addressed below. This Court should not adopt such a
breathtaking expansion of federal removal jurisdiction,
let alone do so where the issue is not within the question
presented.
Amici do not attempt to fully address the errors in
Petitioners' federal common law argument, which
would require a far more exhaustive treatment than is
possible or appropriate here. Instead, amici write to

14
expose the radical result of Petitioners' argument, and
the complexity of the issue that makes it unsuitable for
decision in this case. The rub of Petitioners' argument
is that federal common law is vital enough to pull all
climate cases out of State court based on "federal
interests," but too moribund to provide a viable cause of.
action.
Petitioners' federal common law argument is setting
up a game of three-card Monte, where they simply can
never be sued. First, federal common law strips state
law and state courts of all authority; then federal
statutes displace federal common law; and when the
last card is finally turned over, those federal statutes
neither provide Respondent relief nor address the
tortious conduct for which Petitioners were sued.
At every step, Petitioners' argument would require
resolution of complex issues, often contrary to this
Court's prior case law. This Court has never previously
ruled that federal common law applies to a pollution
dispute that does not involve one State ,attempting to
enjoin actors in another State. It has never previously
ruled that federal common law can provide any basis for
removal to federal court. It has never previously ruled
that the Clean Air Act displaces federal common law
claims for damages based on production, sales, and
deceptive marketing of fossil fuels. And it has never
previously ruled that a claim may be considered
inherently federal, and thus removable on that basis,
where federal law provides no cause of action.
Indeed, Petitioners' argument turns this Court's
prior federal common law decisions on their head. Those
cases recognized that federal common law is necessary
in some inter-state pollution disputes because,

15
otherwise, an injured State might be unable to enjoin
an out-of-state nuisance without also sacrificing its
sovereignty by submitting to the jurisdiction of a
neighboring State. Petitioners' federal common law, in
contrast, forecloses damages remedies that state law
can amply provide, and offers no relief to injured parties
in return. While Petitioners are surely entitled to
contest their liability on the merits and raise federal
defenses, the federal common-law rule they press does
not resolve a controversy involving conflicting States'
rights — it just shuts it down.
A. Petitioners previously argued that
federal common law cannot apply to a
case such as this.
Petitioners suggest that their federal common law
argument is so undisputable it would "break little new
ground" to endorse it, despite its absence from the
question presented here. Petr. Br. 37. Regardless of
whether their argument is correct (it is not), however, it
is clearly not obvious — and this is shown most clearly
by the fact that many of the same Petitioners previously
argued exactly the opposite.
In Native Village of Kivalina v. ExxonMobil Corp.,
696 F.3d 849 (9th Cir. 2012), seven of the present
Petitioners2 argued that federal common law could not
apply to nuisance claims for damages from climate
change. Answering Br. for Defs.-Appellees 56-61,
Kivalina, No. 09-17490 (9th Cir. filed June 30, 2010)
("Kivalina Br."). They argued that "a federal common

2 BP America, Inc.; BP Products North America, Inc.; Chevron
Corp.; Chevron U.S.A., Inc.; ConocoPhillips Company; Exxon
Mobil Corp.; and Shell Oil Co.

16
law nuisance claim cannot seek damages." Id. at 56.
This distinguishes claims such as those at bar from the
Court's decision in AEP, which concerned injunctive
relief against out-of-state actors. 564 U.S. at 418-19.
Petitioners also previously argued that state
sovereignty, which local governments such as
Respondent do not possess, "is the sine qua non of access
to the federal common law of public nuisance," Kivalina
Br. 61.
The Supreme Court has made clear that
the basis for States' access to a federal
common law remedy of abatement of a
nuisance rests on the States'
relinquishment, in exchange for entering
the Union and receiving statehood, of
sovereign warmaking powers that would
otherwise be used to redress
infringements on their territory. See, e.g.
Missouri v. Illinois, 200 U.S. 496, 520-21
(1906).
Id. at 60-61. Petitioners specifically rejected the idea
that damages claims, not brought by States, "raise
`uniquely federal interests' of the type that justify
applying federal common law." Id. at 57 n.23.
This Court should not reject Petitioners' own prior
arguments in a case where the issue has neither been
addressed by the opinion below nor included in the
questions presented.

17
B. Petitioners cannot remove a case to
federal court based on unpled federal
common law that affords Respondent no
cause of action.
Respondent filed its case in state court and pled no
federal claims. Petitioners were only entitled to remove
it to federal court if Respondent could have filed it there
originally. Caterpillar, Inc. v. Williams, 482 U.S. 386,
392 (1987). If federal law merely precludes liability by
preempting state law, it does not provide jurisdiction or
a basis for removal. Id. at 393. Rather than breaking
little new ground, to hold otherwise would be a
substantial departure from Congress' and this Court's
approach to removal jurisdiction. It would also
contravene the decisions of every court to consider the
question in the context of climate change litigation. See
City of Oakland v. BP PLC, 969 F.3d 895, 906-08 (9th
Cir. 2020); see also Massachusetts v. Exxon Mobil Corp.,
462 F. Supp. 3d 31, 39-41 (D. Mass. 2020) (collecting
cases).
Here, Petitioners' argument that this case "arises
under" unpled federal common law is both wrong as to
the scope of federal common law, and wrong as a matter
of removal doctrine. Even if they were correct that
federal common law governs these claims and precludes
liability — and they are not — that would not be a basis
for removal. Their elaborate chain of reasoning — that
federal common law exclusively governs these claims,
yet is displaced by a federal statute that provides no
cause of action — results in the end to simply arguing
that federal law preempts state law.
1. Federal removal jurisdiction "raises significant
federalism concerns," and is therefore construed

18
narrowly. Carpenter v. Wichita Falls Indep. Sch. Dist.,
44 F.3d 362, 365-66 (5th Cir. 1995); see also Pinney v.
Nokia, Inc., 402 F.3d 430, 442 (4th Cir. 2005); Russell
Corp. v. Am. Home Assur. Co., 264 F.3d 1040, 1049
(11th Cir. 2001). Two primary aspects of removal
doctrine guard against expansive removal jurisdiction.
First, the plaintiff is "master of the claim" and "may
avoid federal jurisdiction by exclusive reliance on state
law." Caterpillar, 482 U.S. at 392. Under this "well
pleaded complaint" rule, courts do not look behind the
face of the complaint, and a defendant cannot re-write
the allegations or claims to manufacture a federal case.
Id. at 396-97 (holding that defendant cannot "ignor[e]
the set of facts . . . presented by respondents, along with
their legal characterization of those facts, and argu[e]
that there are different facts respondents might have
alleged that would have constituted a federal claim");
Merrell Dow Pharm., Inc. v. Thompson, 478 U.S. 804,
809 n.6 (1986) ("Jurisdiction may not be sustained on a
theory that the plaintiff has not advanced.").
Second, federal defenses do not create federal
question jurisdiction. While state courts are bound
under the Supremacy Clause to apply federal law, the
fact that federal law preempts or bars liability under
state law is not a cause for federal jurisdiction. See
Caterpillar, 482 U.S. at 392-93. Thus, the fact that
Respondents did not plead a federal claim ends the
matter, even if their state law claims are ultimately
preempted.
This Court has recognized but two rare exceptions
where claims pled under state law nevertheless arise
under federal law and can be removed, but neither
applies here. The first is where an essential element of

19
the state law claim turns on a substantial and disputed
question of federal law. Franchise Tax Bd. v. Constr.
Laborers Vacation Tr., 463 U.S. 1, 13-14 (1983).
Consistent with the "well pleaded complaint rule," the
disputed federal issue must be invoked by the plaintiff
as a necessary component of their right to relief; an
obstacle raised by the defendant will not suffice. Id.
The second is where a "federal statute completely
pre-empts the state-law cause of action." Ben. Nat'l
Bank v. Anderson, 539 U.S. 1, 8 (2003). This too is
exceedingly rare. A court must find that Congress
intended to create an exclusive cause of action for the
complained-of conduct; and then that the state law
claims falls squarely within that preempted field. Id.at
8-9 & n.5. This Court has only found such extraordinary
congressional intent in three statutes. Avco Corp. v.
Machinists, 390 U.S. 557, 560-61 (1968) (§ 301 of the
Labor Management Relations Act of 1947); Metro. Life
Ins. Co. v. Taylor, 481 U.S. 58, 63-67 (1987) (§ 502 of the
Employee Retirement Income Security Act of 1974),
Ben. Nat'l Bank, 539 U.S. at 10-11 (actions for usury
against national banks under the National Bank Act).
And even there, it has been loath to broadly construe
the scope of the preempted field covered by the federal
cause of action. See Caterpillar, 482 U.S. at 394-98
(holding that collective bargaining agreement governed
exclusively under federal law did not preclude claim
under state law for rights under individual contract).
2. Petitioners' "arising under" federal common law
argument does not fall within either exception.
Moreover, the contention that federal common law
supplants the state law pled in this dispute is an
ordinary preemption defense, and not a basis for federal
jurisdiction. See Int'l Paper Co. v. Ouellette, 479 U.S.

20
481, 488 (1987) (if a case "should be resolved by
reference to federal common law" then "state common
law [is] preempted"); accord Empire Healthchoice
Assurance, Inc. v. McVeigh, 396 F.3d 136, 142 (2d Cir.
2005) (if state law "conflicts with federal interests and
requires the application of federal common law," this is
"insufficient to confer federal jurisdiction"). The words
that Petitioners use to make their argument — such as
that "federal law necessarily supplies the exclusive
source of law governing th[e] claims," Petr. Br. 44
(emphasis omitted) — do not change the substance of
their contention.
Petitioners repeatedly cite the Milwaukee line of
cases for the proposition that these claims "necessarily
arise under federal law," Petr. Br. 39, because "if federal
common law exists, it is because state law cannot be
used." Milwaukee v. Ill., 451 U.S. 304, 313 n.7 (1981).
But these decisions say nothing about the scope of
removal based on unpled federal common law, because
"Milwaukee was . . . filed in federal court and invoked
federal jurisdiction such that the well-pleaded
complaint rule was not at issue." Bd. of County Comm'rs
of Boulder County v. Suncor Energy (U.S.A.), Inc., 405
F. Supp. 3d 947, 961-62 (D. Colo. 2019). Even if
Petitioners were right about the scope of federal
common law, the proposition that "state law cannot be
used" provides, at most, an ordinary preemption
defense in state court.
Petitioners allude to the doctrine of complete
preemption by suggesting that Respondent was
"artfully pleading" by omitting a federal common-law
cause of action. See Petr. Br. 44. Petitioners admit that
this Court "has applied the artful-pleading principle
primarily in complete-preemption cases involving

21
federal statutes," but they assert there is no reason not
to extend it to common-law claims. Id. In fact, this
Court has exclusively applied this doctrine in statutory
complete preemption cases, and extending it to federal
common law would not be a trivial matter. There is a
world of difference between finding that Congress
intended to simultaneously preempt state law and strip
State courts of jurisdiction — intent this Court has
rarely found — and empowering federal courts to do so
on their own accord.
Congress, not the courts, should set the proper
balance between federal and state authority. See
Atherton v. FDIC, 519 U.S. 213, 218 (1997) ("Whether
latent federal power should be exercised to displace
state law is primarily a decision for Congress, not the
federal courts." (internal quotation marks omitted));
Merrell Dow Pharm., 478 U.S. at 810 ("We have
consistently emphasized that, in exploring the outer
reaches of § 1331, determinations about federal
jurisdiction require sensitive judgments about
congressional intent, judicial power, and the federal
system."). And even when performing the judicial
function of deciphering statutes, this Court has looked
for clear signs of congressional intent to displace state
law. E.g., Gregory v. Ashcroft, 501 U.S. 452, 460-61
(1991).
The exception Petitioners propose runs counter to
this restrained role and would authorize federal courts
to assume jurisdiction and alter the balance between
federal and state courts with zero guidance from
Congress. It would be a substantial and novel expansion
of federal removal doctrine which is unwarranted under
any circumstances and doubly so in this posture.

22
3. Even if this Court were to hold that federal
common law could completely preempt state law and
create federal jurisdiction, Petitioners' argument would
also require expanding existing law in other ways.
Complete preemption applies only where Congress
intended federal law to provide an "exclusive cause of
action . . . and remedies governing that cause of action."
Ben. Nat'l Bank, 539 U.S. at 8. Thus the Court would
either need to find that federal common law provides
remedies for Respondent's injuries, or it would need to
hold for the first time that unpled federal law can
preempt even where it provides no relief, as
Respondents urge.
Although amici believe that federal common law
does not apply here, it necessarily could only apply if it
supplies a cause of action. It cannot be "artful pleading"
for Respondent to omit pleading a federal common-law
claim that does not exist — and that Petitioners
themselves previously agreed did not exist. Resolving
this issue would require answering several questions
left open in AEP, which held only that "the Clean Air
Act . . . displace[s] any federal common-law right to seek
abatement of carbon-dioxide emissions from fossil-fuel
fired powerplants." 564 U.S. at 424.3 The Court

3 Below, Respondent argued that, under AEP, "any federal
common law that might have been available to govern Plaintiffs
claims in these cases was displaced by Congress's enactment of
the Clean Air Act." Pls.-Appellees' Resp. Br. 3, Mayor & City
Council of Balt. v. BP P.L.C., No. 19-1644 (4th Cir. filed Aug. 27,
2019). Amici agree that federal common law does not extend to
the claims here, infra Part II(C), and that if any federal common
law claims here were displaced by the Clean Air Act — as

23
expressly left open the question of "the availability of a
claim under state nuisance law." Id. at 429; see also Bell
v. Cheswick Generating Station, 734 F.3d 188, 197 (3d
Cir. 2013) (holding that "the Clean Air Act does not
preempt state common law claims"). Nor did the Court
consider whether actions for damages, rather than
abatement of emissions, would similarly be displaced,
let alone preempted. Even if the complete preemption
doctrine could theoretically be extended to federal
common law, the Court would need to answer these
questions in order to determine whether the claims here
could be preempted by an exclusive cause of action
under federal common law.
In order to avoid this inquiry, Petitioners seek to
alter .the law in yet another way: they would permit
removal even if federal common law provides no viable
cause of action. Petr. Br. 44 n.6. They rely on Avco
Corp., AEP, and United States v. Standard Oil Co., 332
U.S. 301 (1947), but none of those decisions supports
them.
Avco addressed Section 301 of the Labor
Management Relations Act, a statute that completely
preempts suits arising out of collective bargaining
agreements. Petitioners are presumably relying on the
Court's statement that the "nature of the relief
available after jurisdiction attaches" is distinct from the
question of federal jurisdiction. 390 U.S. at 561. But
although "[t]he relief in § 301 cases varies," the Court

Petitioners argue — then federal common law cannot provide a
basis for federal jurisdiction. Amid do not agree, however, that if
federal common law does provide the exclusive claim to remedy
the injuries here, the Clean Air Act would necessarily displace it.

24
did not question that some relief was available after
removal. Id. And the Court's more recent statements of
the complete-preemption doctrine make clear that a
federal cause of action is required. E.g., Metro. Life Ins.
Co., 481 U.S. at 65 (noting that complete preemption
"converts an ordinary state common law complaint into
one stating a federal claim"); Ben. Nat'l Bank, 539 U.S.
at 8; Vaden v. Discover Bank, 556 U.S. 49, 61 (2009)
(noting that under complete preemption "a plaintiff's
`state cause of action [may be recast] as a federal claim
for relief" (quoting 14B Wright & Miller § 3722.1, p.
511) (alteration in original)).
Neither AEP nor Standard Oil was a removal case,
and thus cannot support Petitioners argument that
unpled federal common law can wrest jurisdiction from
a state court.4 Thus there is no support for Petitioners'
argument that complete preemption can create federal
jurisdiction and bar a state claim in the absence of a
federal claim. Even if federal common law could provide
a basis for complete preemption, it could only do so if
this Court were to conclude that it provides a cause of
action for Petitioners' claims.
* * *

Federal judges should not be authorized to use their
common-law lawmaking function to strip state courts of
jurisdiction to hear disputes. State courts can be trusted
4 In AEP, the plaintiffs invoked federal jurisdiction and pled
federal common law and the Supreme Court held that federal
common law was displaced by statute. 564 U.S. at 423-29. In
Standard Oil, the United States brought claims under federal
common law. 332 U.S. at 308, 314.

25
to apply federal law; they have been doing so properly
for decades. If their jurisdiction is to be diminished,
Congress must act.
This would be a particularly poor case through
which to recognize the authority Petitioners claim
because this Court would also need to determine
whether federal common law provides remedies for
Petitioners' claims. If there is no federal common-law
claim for Petitioner to bring, then it cannot be a basis
for removal.
C. This dispute is not governed by the
federal common law of interstate
pollution.
As Petitioners previously argued, this Court has
only recognized federal common law in the narrow
category of interstate pollution disputes where an
injured State sought an injunction to shut down an outof-state source of pollution. This case contains none of
those elements, and creating federal common law out of
the vague "federal interests" now asserted by
Petitioners would vastly expand the scope of the
doctrine.
1. Federal common law does not govern all
interstate disputes. Assuming they have personal
jurisdiction, States can generally hold out-of-state
actors liable under their own law for "injurious
consequences" suffered within their borders. Young v.
Masci, 289 U.S. 253, 258-59 (1933); Calder v. Jones, 465
U.S. 783, 789 (1984). The ubiquity of such cases — even
where there are substantial federal interests or
involvement in the dispute — cannot be overstated. See
In re "Agent Orange" Prod. Liab. Litig., 635 F.2d 987 (2d

26
Cir. 1980); Jackson v. Johns-Manville Sales Corp., 750
F.2d 1314 (5th Cir. 1985); In re Nat'l Prescription Opiate
Litig., 440 F. Supp. 3d 773, 799 (N.D. Ohio 2020); In re
Methyl Tertiary Butyl Ether (MTBE") Prods. Liab.
Litig., 725 F.3d 65 (2d Cir. 2013); City of N.Y. v. Bob
Moates' Sports Shop, 253 F.R.D. 237, 242-43 (E.D.N.Y.
2008); People v. ConAgra Grocery Prods. Co., 227 Cal.
Rptr. 3d 499 (Cal. Ct. App. 2017).
2. This Court has recognized a class of interstate
disputes where conflicts between sovereign States
would arise if one State's law were conclusive. In such
cases, a sufficient federal interest exists in mediating
the controversy to justify the creation of federal
common law. The quintessential examples would be
border disputes between States, Rhode Island v.
Massachusetts, 37 U.S. 657 (1838), and conflicts over a
shared resource, Hinderlider v. La Plata River & Cherry
Creek Ditch Co., 304 U.S. 92 (1938).
This class of interstate disputes does encompass
some pollution cases. But as Petitioners previously
argued, those cases had two essential elements that are
missing here: they were actions by States, and they
sought injunctive relief intruding into the territory of
another State. As the Ninth Circuit observed: "It
appears that the Court considers only those interstate
controversies which involve a state suing sources
outside of its own territory because they are causing
pollution within the state to be . . . subject to resolution
according to federal common law." Nat'l Audubon Soc.
v. Dep't of Water, 869 F.2d 1196, 1205 (9th Cir. 1988).
And this Court has expressly not recognized a federal
common-law claim for damages for interstate pollution.
See Middlesex Cty. Sewerage Auth. v. Nat'l Sea

27
Clammers Ass'n, 453 U.S. 1, 21 (1981). Federal common
law simply does not apply here.
3. Federal common law can preempt state law, but
the scope of that displacement must be tied to a conflict
between the application of state law and the unique
federal interest that justifies the creation of a federal
rule in the first instance. O'Melveny & Myers v. FDIC,
512 U.S. 79, 87-88 (1994). "Invoking some brooding
federal interest . . . should never be enough to win
preemption of a state law; a litigant must point
specifically to 'a constitutional text or a federal statute'
that does the displacing or conflicts with state law." Va.
Uranium, Inc. v. Warren, 139 S. Ct. 1894, 1901 (2019)
(Gorsuch, J., three-justice opinion). While this dispute
involves different parties, different tortious conduct,
and different relief, Petitioners pretend that this case
raises the same issues presented in Milwaukee and
AEP, where States sued to enjoin or cap out-of-state
point sources of pollution. It does not.
In Milwaukee, the State of Illinois was seeking to
enjoin polluting emanating from Wisconsin. If decided
under state law, this would give the laws and orders of
Illinois extraterritorial effect — effectively extending its
governance into another State. Similarly, in AEP, the
remedies sought were cross-border injunctions to abate
emissions.
Conversely, state law routinely applies to questions
of liability for damages for cross-border marketing and
selling products, which do not implicate the same
concerns. For example, governmental lawsuits against
tobacco and opioid companies for deceptive business
practices — that caused public health crises — were and
are not regulation of smokers and opioid users. See, e.g.,

28
City & Cty. of San Francisco v. Purdue Pharma L.P.,
No. 3:18-cv-07591, 2020 U.S. Dist. LEXIS 181274, at
*91-107 (N.D. Cal. Sept. 30, 2020) (rejecting federal
preemption of opioid nuisance litigation); In re Tobacco
II Cases, 207 P.3d 20 (Cal. 2009). Federal common law
has never supplied a cause of action against a product
seller. Rather, courts have consistently refused to
recognize an expansive federal common law that covers
such conduct, even when national security is involved.
See In re "Agent Orange" Prod. Liab. Litig., 635 F.2d at
993-95.
The kinds of "federal interests" invoked by
Petitioners here are present in all manner of disputes
that have never previously been governed by federal
common law. Instead, federal common law preempts
state law only where absolutely necessary. This is not
such a case.
CONCLUSION
The language of Section 1447(d), read in context,
plainly restricts appellate review to removal
arguments under Section 1442 and 1443. If it does
not, the statute is ambiguous, and the Tenth Circuit
correctly resolved any ambiguity in favor of limited
appellate review. Allowing review of other grounds
would encourage frivolous invocations of Section 1442
and 1443 solely for the purpose of opening the door to
an appeal.
This proceeding demonstrates the danger of
Petitioners' approach; they have jettisoned their
Section 1442 argument in favor of a misguided federal
common law theory. These are the kinds of arguments
that will saddle the Courts of Appeal if the scope of
review of remand orders is expanded beyond

29
Congress' careful design, further delaying resolution
of cases on their merits. But even if review of other
grounds for removal is permitted, this Court should
not entertain Petitioners' baseless federal common
law argument, which was neither addressed by the
court below nor included in the question presented,
and which Petitioners themselves previously argued
against.

Respectfully submitted,
Kevin S. Hannon
THE HANNON LAW
FIRM, LLC
1641 Downing Street
Denver, CO 80218
David Bookbinder
NISKANEN CENTER
820 First Street NE,
Ste. 675
Washington, DC 20002

December 23, 2020

Marco B. Simons
Counsel of Record
Richard L. Herz
Michelle C. Harrison
Sean Powers
Naomi Glassman-Majara
Lindsay Bailey
EARTHRIGHTS
INTERNATIONAL
1612 K St. NW, Ste. 800
Washington, DC 20006
(202) 466-5188
marco@earthrights.org

